UBS VISA SIGNATURE CREDIT CARD ACCOUNT
SUMMARY TABLE
Interest Rates and Interest Changes
Annual Percentage Rate
(APR) for Purchases

15.24%
This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

0% introductory APR for twelve billing cycles for balance transfers within 90
days of account opening
After that, your APR will be 15.24%. This APR will vary with the
market based on the Prime Rate.

APR for Cash Advances

22.24%
This APR will vary with the market based on the Prime Rate.

Penalty APR and When it
Applies

29.24%
This APR may be applied to your account if you:
1) Make a late payment; or
2) Make a payment that is returned.
This APR will vary with the market based on the Prime Rate.
Maximum APR 29.99%
How Long Will the Penalty APR Apply? If your APRs are
increased for any of these reasons, the Penalty APR may apply to your
balances indefinitely.

Paying Interest

Your due date is at least 23 days after the close of each billing cycle. We
will not charge you interest on purchases if you pay your entire balance by
the due date each month. We will begin charging interest on cash
advances and balance transfers on the transaction date.
For residents of Iowa and Puerto Rico
Your due date is at least 23 days after the close of each billing cycle. We
will not charge you interest on purchases if you pay your entire balance by
the due date each month. We will begin charging interest on cash
advances and balance transfers on the posting date.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection Bureau
at consumerfinance.gov/learnmore.

1

Fees
Annual Fee

$0

Transaction Fees:


Balance Transfer



Cash Advance



Foreign Transaction

Either $2 - $10 or 2% - 3% of the amount of each transfer, whichever
is greater
Either $2 - $10 or 2% - 3% of the amount of each cash advance,
whichever is greater.

3%
This fee does not apply to residents of Iowa and Puerto Rico.

Penalty Fees:


Late Payment

Up to $38



Over-the-Credit-Line

$0



Returned Payment

Up to $38

How We Will Calculate Your Balance: We use a method called “daily balance (including new
purchases)”. See the Cardmember Agreement for more details.
Loss of Introductory APR: We may end your Introductory APR and apply the Penalty APR if you
make a late payment.
Billing Error Rights: Information on your rights to dispute transactions and how to exercise those
rights is provided in your Cardmember Agreement.
Variable Rate Information: The standard Annual Percentage Rates (APRs) on your Account that
are used to determine the amount of interest to be charged for Purchases, Balance Transfers (after
the Introductory Period), Cash Advances, and the Penalty APR are variable rates. Introductory APR is
available on all Balance Transfers made during the first 90 days after account opening. The
introductory APR will be applied to each eligible Balance Transfer for the first twelve billing cycles
after the date of the Balance Transfer.
The APRs on your Account correspond to Daily Periodic Rates (DPRs) and are calculated by
multiplying the applicable DPR by 365. The DPRs on your Account equal 1/365th of the sum of 1)
the applicable Prime Rate, 2) plus 11.99% for Purchases, plus 11.99% for Balance Transfers, plus
18.99% for Cash Advances; and plus up to 25.99% for the Penalty APR (maximum penalty APR
29.99%). The “Prime Rate” used in determining the APRs in each billing cycle will be the highest
U.S. Prime Rate published in the Money Rates column of The Wall Street Journal on the last business
day of each month. An increase or decrease in the Prime Rate will cause a corresponding increase or
decrease to your variable rates on the first day of the billing cycle that begins in the same month in
which the applicable Prime Rate is published. There is no limitation on the amount of any increase.
Any such increase or decrease will cause a corresponding increase or decrease in the amount of
interest assessed and possibly in the amount of the Minimum Payment Due. If The Wall Street
Journal does not publish the U.S. Prime Rate, or if it changes the definition of the U.S. Prime Rate,
we may substitute another index.

2

The current rates on your Account. The rates on your account vary with the market based on the
Prime Rate. The following rates are accurate as of April 2020. The DPR for your Introductory Rate
during the introductory period would have been 0.0000% (which corresponds to an introductory
APR of 0.00%). The DPR for Purchases would have been 0.0418% (which corresponds to an APR of
15.24%). The DPR for Balance Transfers would have been 0.0418% (which corresponds to an APR
of 15.24%). The DPR for Cash Advances would have been 0.0609% (which corresponds to an APR
of 22.24%). The Penalty APR established by the variable rate formula above would have been a DPR
of up to 0.0801% (which corresponds to an APR of up to 29.29%). Maximum Penalty APR is
29.99% (daily periodic rate 0.0822%)
For residents of Iowa and Puerto Rico
How We Will Calculate Your Balance: We use a method called “average daily balance (including
new purchases)”. See the Cardmember Agreement for more details.
Loss of Introductory APR: We may end your Introductory APR and apply the Penalty APR if you
make a late payment.
Billing Error Rights: Information on your rights to dispute transactions and how to exercise those
rights is provided in your Cardmember Agreement.
Variable Rate Information: The standard Annual Percentage Rates (APRs) on your Account that are
used to determine the amount of interest to be charged for Purchases, Balance Transfers (after the
Introductory Period), Cash Advances, and the Penalty APR are variable rates. Introductory APR is
available on all Balance Transfers made during the first 90 days after account opening. The
introductory APR will be applied to each eligible Balance Transfer for the first twelve billing cycles
after the date of the Balance Transfer.
The APRs on your Account correspond to Monthly Periodic Rates (MPR) and are calculated by
multiplying the applicable MPR by 12. The MPRs on your Account equal 1/12th of the sum of 1) the
applicable Prime Rate, 2) plus 11.99% for Purchases, plus 11.99% for Balance Transfers, plus
18.99% for Cash Advances; and plus up to 25.99% for the Penalty APR (maximum penalty APR
29.99%). The “Prime Rate” used in determining the APRs in each billing cycle will be the highest
rate published in the Money Rates column of The Wall Street Journal on the last business day of
each month. An increase or decrease in the Prime Rate will cause a corresponding increase or
decrease to your variable rates on the first day of the billing cycle that begins in the same month in
which the applicable Prime Rate is published. There is no limitation on the amount of any increase.
Any such increase or decrease will cause a corresponding increase or decrease in the amount of
interest assessed and possibly in the amount of the Minimum Payment Due. If The Wall Street
Journal does not publish the U.S. Prime Rate, or if it changes the definition of the U.S. Prime Rate,
we may substitute another index.
The current rates on your Account: The rates on your account vary with the market based on the
Prime Rate. The following rates are accurate as of April 2020. The MPR for your Introductory Rate
during the introductory period would have been 0.0000% (which corresponds to an introductory
APR of 0.00%). The MPR for Purchases would have been 1.2700% (which corresponds to an APR of
15.24%). The MPR for Balance Transfers would have been 1.2700% (which corresponds to an APR
of 15.24%). The MPR for Cash Advances would have been 1.8533% (which corresponds to an APR
of 22.24%). The Penalty APR established by the variable rate formula above would have been a MPR
of up to 2.4367% (which corresponds to an APR of up to 29.24%). Maximum Penalty APR is 29.99%
(MPR 2.4992%)

3

CARDMEMBER AGREEMENT
Your Cardmember Agreement with Us
Your Billing Rights
Retain for your records
Introduction
This Agreement establishes the terms of your credit card Account (Account) with UBS Bank USA, Salt
Lake City, UT. Please read it carefully and keep it with your records. You do not need to sign this
Agreement, but please sign the back of your credit card (the Card), if you have not already done so.
All extensions of credit in connection with your Account are being made by UBS Bank USA. The
Account Summary Table, found on the back of the folder containing your card, is part of this
Agreement.
Using your account/acceptance of these terms
You do not need to accept the Account and this Agreement and none of the fees on this Account
(except as otherwise provided herein) will apply unless you use the Account. If your Account has an
Annual Fee (see the Account Summary Table to determine if this Account has an Annual Fee) and
provided that you have not otherwise used the Account to make a Purchase, Balance Transfer or Cash
Advance or paid the Annual Fee, you may close the Account within thirty days after Account opening
by contacting us at the number on the back of your Card, and if you do, you will not be responsible
for paying the Annual Fee. By signing, keeping, using or otherwise accepting your Card or Account,
you agree to the terms and conditions of this Agreement. You agree to be responsible for all changes
incurred by you and any authorized users on your Card or Account. You may obtain credit in the form of
Purchases, Balance Transfers and Cash Advances by using your Card, your Account number, Checks,
or other credit devices. You may also make purchases through digital or mobile wallet services (for
example, but not limited to, Apple Pay) from time to time. You agree that the use of digital or mobile
wallet services is subject to this Agreement and any additional terms and conditions you agree to
when signing up for those particular services. We are not responsible for providing the digital or
mobile wallet services to you and you agree that we make no representations or promises as to where
you may use them. We are not responsible for any failure of the digital or mobile wallet service to
work. We may provide notices to you regarding mobile or digital wallet services in this Agreement or
by posting material to your mobile or digital wallet service's terms and conditions or similar section on
your digital or mobile wallet service supported device. You agree that we may credit your Account
rather than issue cash refunds when you reverse transactions that were originally charged to your
Account. You agree that you will not use your Card or Account in connection with any transaction
that is prohibited or unenforceable and that if you do engage in such a transaction you waive any
claim that the charge is uncollectible on the grounds the transaction was prohibited or
unenforceable. The Card must be returned to us upon request. We may replace your Card with
another Card at any time.

Definitions
If we use a capitalized term in this document but we do not define the term in this document, the
term has the meaning as used in your monthly statement.
“Agreement” means this document and the Account Summary Table, and any changes we make to
these documents from time to time.
“Authorized Card Manager” means the person you designate to manage your Account, make
decisions about your Account, and obtain information about your Account.

4

“Authorized User” means any person you allow to use your Account including without limitation
through a Card, Check, the Account number, other credit device or, digital or mobile wallet services
such as, but not limited to, Apple Pay.
“Balance Transfer” means the use of your Account for a loan obtained by a transfer of funds
initiated by us at your request and includes the use of a Balance Transfer Check. “Balance Transfer”
includes the Transaction Fees associated with any Balance Transfer.
“Cash Advance” means the use of your Card or Account number to obtain cash loans at any
financial institution or automated teller machine (ATM) that accepts the Card, the use of a Cash
Advance Check or the purchase of Cash Equivalents. “Cash Advance” includes the Transaction Fees
associated with any Cash Advance or any Cash Equivalent.
“Cash Equivalent” means the use of your Card or Account number to obtain money orders,
traveler’s checks, foreign currency, lottery tickets, gambling chips, make wagers or similar betting
transactions, wire transfers or similar cash-like transactions including but not limited to
cryptocurrencies. Cash Equivalents and the Transaction Fees associated with any Cash Equivalent
are considered Cash Advances for interest calculation purposes.
“Check” or “Convenience Check” means an access check we provide to you to make a Cash
Advance or a Balance Transfer as applicable on your Account. A Check can be either a Balance
Transfer Check or a Cash Advance Check and will be designated as such by us.
“Daily Periodic Rate” or “DPR” means the applicable APR divided by 365.
“Foreign Transaction” means the use of your Card or Account (other than through a Cash Advance)
for a transaction with a business or entity located outside of the United States or for a transaction in
a currency other than U.S. dollars. Foreign
Transactions and the Transaction Fees associated with any Foreign Transaction are considered
Purchases for interest calculation purposes.
“Monthly Periodic Rate” or “MPR” means the applicable APR divided by 12.
“Purchase” means the use of your Card or Account number to buy or lease goods or services and to
make a transaction that is not otherwise a Balance Transfer or a Cash Advance. Purchases include
Foreign Transactions, Account Fees and any adjustments associated with any Purchase.
“You” and “your” refer to each person who has applied for, accepted, or used the Account and
each person who has agreed to be responsible for the Account.
“We,” “us” and “our” refer to UBS Bank USA.
Obligations on your account
You authorize us to pay and charge your Account for all Purchases, Balance Transfers, Checks, and
Cash Advances made or obtained by you or anyone you authorize to use your Card or Account. You
agree to pay us for all of these Purchases, Balance Transfers, Checks, and Cash Advances, plus any
interest assessed on your Account and any other charges and fees that you may owe under the
terms of this Agreement, whether resulting from 1) physical use of your Card or a Check, 2) mail
order or telephone, computer or other electronic transaction made without presenting the Card, or
3) any other circumstances where you authorize a charge, or authorize someone else to make a
charge, to your Account. Each person who has agreed to be responsible on the Account is
responsible to pay the full amount owed on the Account. If this is a joint Account, we can send
statements and notices to either of you. We may require that you pay the full amount owed without
first asking any other person(s) to pay. Instructions for making payments are on your monthly billing
statement. Payments that comply with the requirements specified on or with your monthly billing
statement, including the time of receipt, will be credited on the business day they are received.
Payments must be mailed to the correct P.O. Box or street address specified for U.S. Priority Mail and
overnight payments. There may be a delay of up to five (5) days in crediting payments that
are not made in accordance with those instructions. Please allow at least seven (7) days for
the U.S. Postal Service to deliver your payment. All payments must be made in U.S. dollars. Any

5

payment made by check or other negotiable instrument or direct debit must be drawn on a U.S.
bank or a U.S. branch of a foreign bank. We reserve the right to accept payments made in a foreign
currency. If we do, we will select the foreign currency rate at our discretion. Your available credit
may not be increased by the amount of the payment for up to seven (7) days to ensure we
collect the funds from the bank on which your payment is drawn. If you overpay or if there is
a credit balance on your Account, we will not pay interest on such amounts.
Automatic repayment of cash advances through CashConnect
The CashConnect feature on your UBS credit card Account will automatically repay new Cash
Advances obtained from ATMs and financial institutions (CashConnect Cash Advances), each night,
with available funds from your UBS Resource Management Account (RMA) or your UBS Business
Services Account BSA (either referred to as UBS Account). The CashConnect feature is available only
for cardholders who have the UBS credit card connected to a RMA or Business Services Account
BSA. You will incur no interest charges on CashConnect Cash Advances, as long as there are
sufficient available funds in your UBS Account to repay your CashConnect Cash Advance transaction
in full when we first seek payment from your UBS Account. If sufficient available funds are not
available in your UBS Account to pay off your CashConnect Cash Advances balance in full, then the
APR on Cash Advances (as listed in the Account Summary Table) will apply as of the original
transaction date on any remaining balance. You will be charged the APR on Cash Advances on your
remaining CashConnect Cash Advance balance until it is repaid in full. Applicable ATM surcharge fees
may apply. No other Account balances are paid through the CashConnect feature. The CashConnect
feature only applies if you have a UBS Account. If you have a UBS Account and choose not to
participate in the CashConnect feature, please contact UBS Financial Services Inc. at 800-762-1000.
Interest rate information
See the Account Summary Table for information on how the APRs on your Account are calculated.
How the penalty APR may apply to your account
The APRs on your Account may be increased each time you fail to make a payment to us when due,
or you make a payment that is not honored by your bank. If we increase the APRs on your Account,
we will notify you in advance of the increase. Our notice to you will include the effective date of the
APR increase and the balances to which the Penalty APR will be applied. If the Penalty APR is applied
to your Account, it may continue to apply indefinitely.
Checks on your account
We may issue Checks on your Account in the form of “Balance Transfer Checks” or “Cash Advance
Checks,” which can be used to access your credit line. Each Check will contain your Account number
and may be used only by the person(s) whose name(s) is/are printed on it. Each must be completed
and signed in the same manner as a regular personal check. If we provide Checks to you, you may
not use them to pay any amount you owe under this Agreement or under any other Account you
may have with us. Balance Transfer Checks and Cash Advance Checks are subject to the same rate
and other terms under this Agreement as Balance Transfers and Cash Advances, respectively. Unless
otherwise indicated, all references in this Agreement to Balance Transfers include Balance Transfer
Checks, all references to Cash Advances include Cash Advance Checks, and all references to use of
the Account include use of these Checks. At our sole discretion we may elect to not honor a Check if
your Account is not in good standing or if the Check may cause your Account to exceed the Cash
Advance or other applicable credit line on your Account. At our sole discretion we may elect to
honor a Check after its expiration date. Unlike purchase transactions, there are very limited dispute
rights with regard to Balance Transfer and Check transactions.

6

Personal Identification Number (PIN)
We may issue you a PIN that you can use to obtain a Cash Advance at participating ATMs, or to
authorize other transactions at terminals that connect with a microchip embedded in your Card.
You must keep your PIN confidential, and may not write it on your Card or on any material you keep
with your Card. You agree that we may honor each ATM or other transaction according to the
instructions keyed in for it at the ATM or terminal, and you acknowledge that each transaction made
using your Card and PIN will have the same effect, and you will be liable, as if it was made by a
written document signed by you.
Credit line/authorized usage
Your credit line is shown on the folder containing your Card. We may change your revolving credit
line from time to time— either increase or decrease it—in our sole discretion. If at any time
(including in the first month after your Account is opened) you engage in Account actions or activity
that we perceive could have a negative impact on your credit standing with us, we may decrease your
revolving credit line or close your Account. Your latest revolving credit line will appear on your monthly
billing statement. You agree that we may change or cancel your revolving credit line or cash
advance limit at any time for any reason without affecting your obligation to pay amounts that you
owe under this Agreement. We will notify you of any change, but the change may take effect before
you receive the notice.
Your revolving credit line is available to buy or lease goods or services where the Card is honored.
You agree not to authorize a Balance Transfer, use a Check, or obtain a Cash Advance that would
cause the unpaid balance of your Account to exceed your credit line. We may honor Purchases,
Balance Transfers, Checks and/or Cash Advances in excess of your credit line at our sole discretion. If
we do, this Agreement applies to that excess and you agree to pay the excess immediately if we
request that you do so. We may designate that only a portion of your revolving credit line is available
for Cash Advances. If we do and you exceed your line, you will be considered to have exceeded your
credit line for all purposes of this Agreement. We may limit the authorizations to make Purchase,
Balance Transfer, Check, or Cash Advance transactions that may be accomplished with your Card or
Account. Because your Account has no pre-set spending limit, we may permit you from time to time
at our discretion to make certain charges that cause your outstanding balance to exceed your
revolving credit line. These charges will be evaluated based on Account performance, other credit
Accounts with us, and your experience with other creditors. If we authorize these charges, you must
pay, with your Minimum Payment Due, the amount by which your balance exceeds your revolving
credit line, including amounts due to Purchases, Cash Advances, Interest charges, Account Fees, or
other charges.
Monthly billing statements
At the end of each monthly billing cycle a statement will be mailed or delivered to you if your
Account has a debit or credit balance of more than $1.00 or if interest or a fee has been imposed. We
will not send a monthly billing statement if we deem your Account uncollectible or if delinquency
collection proceedings have been instituted by us sending your Account to an outside collection
agency or attorney for collection.
Your minimum payment each month
Each billing cycle, you must pay at least the Minimum Payment Due shown on your monthly
statement by its Payment Due Date. If the Statement Balance shown on your monthly
statement is less than $35, your Minimum Payment Due (due by the Payment Due Date) will be
that Statement Balance amount. Otherwise, if your Statement Balance is equal to or greater
than $35, your Minimum Payment Due will be the greater of $35 or the total of (1) 2% of the
Principal Balance (defined as the total Statement Balance minus any interest charges, Returned

7

Payment Fees, and Late Payment Fees that are incurred during the current billing cycle), plus (2)
interest charges incurred during the current billing cycle (for this purpose, interest charges
incurred do not include interest charges that accrued during prior billing cycles on a deferred
interest balance (if there are any on your Account) that ended during the billing cycle covered
by the statement), plus (3) any Returned Payment Fees and any Late Payment Fees incurred
during the current billing cycle, plus (4) if your Account has an Annual Fee and if we so elect, a
portion of the amount of the Annual Fee (unless you have already paid the Annual Fee in full),
plus (5) if we so elect, any amount past due and/or amount over your credit line at the time of
billing. In certain instances your Minimum Payment Due may be less than your total fees and
interest assessed in that billing cycle. At any time you may pay more than the Minimum
Payment Due up to the full amount you owe us, however you cannot “pay ahead”. This means
that if you pay more than the required Minimum Payment Due in any billing cycle or if you
make more than one payment in a billing cycle, you will still need to pay the next month’s
required Minimum Payment Due by your next Payment Due Date.

How we will calculate your balance subject to interest rate
We use a method called “daily balance (including new purchases)." To determine the amount of the
interest to be charged on your Account we first calculate the “Balance Subject to Interest Rate”
separately for Purchases, for Balance Transfers, and for Cash Advances. We apply the applicable DPR
to each of the applicable daily balances for i) Purchases, ii) Balance Transfers and iii) Cash Advances.
The daily balances for Purchases, for Balance Transfers and for Cash Advances are each calculated
separately and determined as follows: We take the beginning balances for each transaction type on
your Account each day, including any interest calculated on the previous day’s balance, add to the
respective balances any new transaction, subtract any payments or credits and make any other
applicable adjustment(s). This Agreement provides for compounding of interest. A credit balance is
treated as a balance of zero. If you multiply the “Balance Subject to Interest Rate” for each balance
category as shown on your monthly billing statement by the number of days in the billing period and
then multiply each sum by the applicable DPRs, the results will be the interest assessed, except for
minor variations caused by rounding. We may from time to time offer you “introductory,” “special”
or “promotional” APR offers. If any are in effect on your Account, we will separately identify the
balances to which such offers apply on your monthly billing statement. These separate balances and
the related interest will be calculated in the same manner as described above.
For Residents of Iowa and Puerto Rico
We use a method called “average daily balance (including new purchases).” To determine the
amount of the interest to be charged on your Account we first calculate the “Balance Subject to
Interest Rate” separately for Purchases, for Balance Transfers and for Cash Advances. We apply the
applicable Monthly Periodic Rate to the average daily balances of i) Purchases, ii) Balance Transfers,
and iii) Cash Advances. The average daily balances for Purchases, for Balance Transfers and for Cash
Advances are calculated separately and determined as follows: We take the beginning balances for
each balance category on your Account each day, add to the respective balances any new transaction,
subtract any payments or credits and make any other applicable adjustment(s). A credit
balance is treated as a balance of zero. Then we take the sum of all daily balances and divide by the
number of days in the billing period to determine the average daily balance. If you multiply the
“Balance Subject to Interest Rate” for each balance category as disclosed on your monthly billing
statement by the applicable MPRs, the results will be the interest assessed, except for minor variations
caused by rounding. We may from time to time offer you “introductory,” “special” or “promotional”
APR offers. If any are in effect on your Account, we will separately identify the balances
to which such offers apply on your monthly billing statement. These separate balances and
the related interest will be calculated in the same manner as described above.

8

Accrual of interest and how to avoid paying interest on purchases
On Purchases, interest begins to accrue as of the transaction date. However, if you paid the
Statement Balance that was shown on your previous billing statement by the Payment Due Date on
that statement, then (1) we will not impose interest on Purchases during your current billing period if
you pay the Statement Balance on your current billing statement by the Payment Due Date in the
current billing period, and (2) we will credit any payment applied toward Purchases as of the first day
in your current billing period if you make a payment by the Payment Due Date in the current billing
period that is less than the Statement Balance. If a Statement Balance was shown on your previous
billing statement and you did not pay the Statement Balance by the Payment Due Date on that
statement, then we will not impose Interest Charges on any Purchases during the current billing
period if you pay the Statement Balance shown on your current billing statement by the Payment
Due Date in the current billing period.
For Balance Transfers, interest will accrue from the day we send the Balance Transfer to the payee.
For Checks, interest will accrue from the day the payee accepts the check. For Cash Advances,
interest will accrue from the day you take the Cash Advance.
For residents of Iowa and Puerto Rico
On Purchases, interest begins to accrue as of the date your transaction is posted on the Account.
However, if you paid the Statement Balance that was shown on your previous billing statement
by the Payment Due Date on that statement, then (1) we will not impose interest on Purchases
during your current billing period if you pay the Statement Balance on your current billing statement
by the Payment Due Date in the current billing period, and (2) we will credit any payment applied
toward Purchases as of the first day in your current billing period if you make a payment by the
Payment Due Date in the current billing period that is less than the Statement Balance. If a Statement
Balance was shown on your previous billing statement and you did not pay the Statement Balance by
the Payment Due Date on that statement, then we will not impose Interest Charges on any
Purchases during the current billing period if you pay the Statement Balance shown on your current
billing statement by the Payment Due Date in the current billing period. For Balance Transfers,
interest will accrue from the day we send the Balance Transfer to the payee. For Checks, interest will
accrue from the day we pay the check. For Cash Advances, interest will accrue from the day the
Cash Advance is posted on the Account.

Transaction fees
If you use your Card or Account to obtain a Cash Advance, we will charge a Cash Advance Fee for
each such Cash Advance. If you use your Card or Account to do a Balance Transfer, we will charge a
Balance Transfer Fee for each such Balance Transfer. If you use your Card or Account to purchase
Cash Equivalents, we will charge a Cash Advance Fee (sometimes we may refer to this as a Cash
Equivalent Fee) for each such transaction. If you use your Card or Account for a Foreign Transaction,
we will charge a Foreign Transaction Fee for each such transaction. Balance Transfer Checks and
Cash Advance Checks are subject to the same Transaction Fee as Balance Transfers and Cash
Advances, respectively. The present amounts of those charges are stated in the Account Summary
Table. When you use an ATM, you may be charged a fee by the ATM operator and / or any network
used (and you may be charged a fee for a balance inquiry even if you do not complete a transaction).
If you have an active UBS Account linked to this credit card account, UBS Financial Services Inc. will
reimburse your U.S. domestic ATM fees, up to $5.00 per transaction, for an unlimited number of
transactions per year for the UBS Visa Signature credit card, and up to $10.00 per transaction for an
unlimited number of transactions per year for the UBS Visa Infinite credit card. We will not
reimburse your international ATM fees. We are able to rebate ATM fees only in cases where the

9

transaction fee surcharge is submitted to UBS by the ATM operator and / or network used. In the
event that you have not received a rebate for a fee that you believe is eligible, please call 800-7621000 or collect at 201-352-5257 for assistance.
Account fees
In addition to the fees listed in the Account Summary Table, we may also assess the Account Fees
listed below.
Annual fee: If your Account has an Annual Fee, it will be assessed during the first monthly billing
cycle and every twelve months thereafter, on the fee anniversary month. The amount of the Annual
Fee, if there is one on your Account, is listed in the Account Summary Table.
Late payment fee: If we do not receive a payment from you in at least the amount of your
Minimum Payment Due by the Payment Due Date shown on your monthly statement, we may
charge you a Late Payment Fee. The Late Payment Fee will be $27, but $38 if you did not make at
least the Minimum Payment Due by the Payment Due Date in each of the 6 prior billing periods.
However, the Late Payment Fee will never exceed the amount of your required Minimum Payment
Due to which the Late Payment Fee relates.
Returned payment fee: If your bank does not honor a check or direct debit you deliver to us, or
we must return a check because it is not signed or is otherwise irregular, we may charge you a
Returned Payment Fee. The Returned Payment Fee will be $27, but $38 if you had a returned
payment in any of the 6 prior billing periods. However, the Returned Payment Fee will never exceed
the amount of your most recent required Minimum Payment Due.
Returned check fee: If we return a Convenience Check (which includes a Balance Transfer Check
or a Cash Advance Check) unpaid because it exceeds your available credit line at the time it is
processed, your Account is closed or otherwise does not have charge privileges, you did not comply
with our instructions regarding the Check, or your Account is past due, we may charge you a
Returned Check Fee. The Returned Check Fee will be $27, but $38 if you had a returned
Convenience Check in any of the 6 prior billing periods. However, the Returned Check Fee will never
exceed the face amount of the returned Convenience Check.
Foreign currency conversion
We and Visa (or its affiliates) will convert transactions in foreign currencies into U.S. dollars. Visa will
use its currency conversion procedures that are current at the time of the transaction. Currently,
Visa selects a rate from the range of rates available in the wholesale currency markets for the
applicable central processing date, which may vary from the rate Visa itself receives, or the
government-mandated rate in effect for the applicable central processing date. The currency
conversion rate used on the conversion date may differ from the rate in effect on the date you used
your Card or Account.
Authorized Users
You may allow Authorized Users to use your Account and designate a spending limit for any
Authorized User. If you allow an Authorized User to use your Account, you will be liable for all
transactions made by that person including transactions for which you may not have intended to be
liable, even if the amount of those transactions causes your credit line or the spending limit of any
Authorized User to be exceeded. You must notify us to revoke your permission to allow an
Authorized User to use your Account or Card, and you must obtain possession of any Card that has

10

been given to the Authorized User. Until you revoke your permission and obtain possession of any
Card, you are responsible for all charges made by Authorized Users, including Balance Transfer
Check and Cash Advance Check transactions, regardless of whether you intended to be responsible
for those charges and you must obtain any Card that has been given to the Authorized Users. If you
request additional Cards for Authorized Users, checks accessing this Account may also be included
with the Card.
Authorized Card Manager
If you designate, and we accept your designation of, an Authorized Card Manager for your Account,
you agree that we may accept any instructions or requests of the Authorized Card Manager regarding
your Account, we may accept payments from the Authorized Card Manager, and we may
provide any information concerning your Account to the Authorized Card Manager. We may,
however, in our discretion, refuse any instruction or request from an Authorized Card Manager. You
are responsible for any action taken by an Authorized Card Manager. An Authorized Card Manager
may not incur new transactions on the Account unless the person is also an Authorized User.
Administrative charges
If you request photocopies of monthly billing statements, you will be charged $5 for each duplicate
requested for each statement requested that is less than 25 months old. If the requested statement is
25 months or older you will be charged $10 for each requested statement. If you request any special
services such as obtaining Cards on an expedited basis, you agree to pay our reasonable charges for
such services, in effect at that time.
Default/collectioncosts
Unless otherwise prohibited by law, your Account will be in default and we may demand immediate
payment of the entire amount you owe us if: 1) in any month we do not receive your Minimum
Payment Due by the Payment Due Date; 2) you make Purchases, initiate Balance Transfers, use a
Check or obtain Cash Advances in excess of your credit line; 3) you fail to comply with this
Agreement; 4) there is a filing for your bankruptcy; 5) you die or become incapacitated; or 6) we
believe in good faith that the payment or performance of your obligations under this Agreement is
impaired for any other reason. As permitted by applicable law, you agree to pay all collection
expenses actually incurred by us in the collection of amounts you owe under this Agreement
(including court or arbitration costs and the fees of any collection agency to which we refer your
Account) and, in the event we refer your Account after your default to an attorney who is not our
regularly salaried employee, you agree to pay the reasonable fees of such attorney. We will not be
obligated to honor any attempted use of your Account if a default has occurred or we have
determined to terminate your Account or limit your Account privileges (as discussed below).
Termination/we may suspend or close your account
We may suspend or close your Account or otherwise terminate your right to use your
Account without prior notice. We may do this at any time and for any reason, including but not
limited to, if there is a change in your creditworthiness or if your Account becomes inactive. You
must return to us (or otherwise deactivate) all Cards, Checks, other credit devices, or any digital or
mobile wallet services on the Account when we request. You agree that you will not try to make a
Purchase, use a Check, initiate a Balance Transfer or obtain a Cash Advance after you have been
notified that your privilege to use your Account has been closed. You may close your Account at any
time. If you do, you must return to us all Cards and Checks previously issued on the Account. If you
call us, we may require that you confirm your termination in writing. Your obligations under this
Agreement continue even after the Account is closed. If you voluntarily close your card, you will
be allowed 60 days following the effective date of termination of the UBS Account or Cards to
redeem outstanding rewards points (Points) for gift cards or merchandise. In the event we close

11

your Card for any reason other than inactivity, your Points will be immediately forfeited. In the
event we close your Card due to inactivity, you will have not less than 60 days to redeem your
Points for gift cards or merchandise. With the exceptions noted below, Points are forfeited
immediately upon closure of the Card due to death of the cardholder. The Points may be
reinstated to an open UBS credit card account of a spouse or domestic partner of the cardholder
if the spouse or domestic partner requests reinstatement of the Points in writing within 90 days
of the account closure and the remaining outstanding balance on the closed credit card account
has been paid. The spouse or domestic partner must submit written proof of the marital or
domestic partner status satisfactory to us. If such satisfactory written proof is not submitted
within 30 days of the request, the points will be permanently and irrevocably forfeited.
Notices to you
Billing statements and notices will be sent to the address shown in our files. If this is a joint Account,
we may send billing statements and notices to either of you. You promise to inform us promptly of
any change in your e-mail address or your U.S. mail address by calling us at 800-762-1000. Or, you
may contact your Financial Advisor for this request.
Skip payment program and other special terms
From time to time, we may let you skip or reduce one or more monthly payments during a year
(interest will continue to accrue) or offer you other special features. If we do, we will advise you of
the scope and duration of the applicable skip or special feature. When the skip or special feature
ends, your regular terms will resume.
Changes to this agreement
We can change this Agreement, including the annual percentage rate and any fees, as
permitted by applicable law. These changes may include the addition or deletion of
provisions relating to your Account or to the nature, extent, and enforcement of the rights
and obligations you or we may have under this Agreement. We will notify you of any
change to the extent required by law. Any change, including any increase or decrease in
your APRs, will become effective at the time stated in our notice and will apply to those
balances, including new transactions, on your Account as described in our notice.
Credit information
You agree that we may request consumer credit reports from one or more credit reporting
agencies in connection with your application and the review, administration and collection
of your Account. You also authorize us to exchange credit information concerning you or your
Account or any Authorized Users with (and answer questions and requests from) others, such as
merchants, other lenders and credit reporting agencies. We may report information about your
Account to credit bureaus. Late payments, missed payments, or other defaults on your Account may
be reflected in your credit report. If you believe that an entry we have made on your credit report or
the credit report of any Authorized User is inaccurate or incomplete, please contact the credit bureau
directly or contact us at UBS Bank USA, Card Operations, 1000 Harbor Boulevard, 6th floor,
Weehawken, NJ 07086. We will request your name and/or the name of the Authorized User; your
Account number; the credit bureau where you or the Authorized User received the credit report; a
description of the error; and why you believe it is an error. We will promptly investigate, then notify
you or the Authorized User of our findings, and send an update to the credit bureaus if warranted
within 30 days.
Phone calls/electronic communications
In the regular course of our business, for quality control and archival purposes, we may monitor and
record phone conversations made or received by our employees or our agents. Similarly, we may
monitor and record e-mail or conversations on our website between you and our employees or

12

agents. You agree that we will have such right with respect to all phone conversations, e-mail or
conversations between you and our employees or agents, whether initiated by you or any of our
employees or agents. You also agree that in connection with our collection (whether by us or by any
agent of ours) of any amounts owed on the Account that: 1) telephone calls, from us or on our
behalf, may be made: (a) to the telephone number(s) that you provided on the Account Application:
(b) to any other telephone number(s) that you later provide to us, and/or (c) to any telephone
number(s) that we are permitted by law to use to contact you; 2) these calls may be sent using
automatic dialing equipment and/or include prerecorded messages; 3) other communications,
including mobile text messages, may be sent to the same telephone number(s) (technology
permitting); 4) you may be charged by your service provider for these calls in accordance with your
service plan between you and your current telephone provider, but we pay any charges for sending
text messages to you; 5) these calls and/or messages are not “unsolicited” calls for purposes of
applicable law; and 6) except to the extent prohibited by applicable law, other communications,
including, but not limited to, fax or telecopier, Internet, U.S. mail, and non-mobile e-mail messages,
may be sent to you.
Refusal to honor card
We are not responsible for refusals to honor your Card or Checks. And, except as otherwise required
by applicable law or regulation, we will not be responsible for merchandise or services purchased or
leased through use of your Account.
Irregular payments and delay in enforcement
We can accept late payments, partial payments, checks and money orders marked “Paid in Full” or
language having the same effect without losing any of our rights under this Agreement, and such
payments may be sent only to the following address: UBS Bank USA—Card Services, P.O. Box
203219, Dallas, TX 75320-3210. We can also delay enforcing our rights under this Agreement any
number of times without losing them. The fact that we may at any time honor a Purchase, Check,
Balance Transfer or Cash Advance in excess of your maximum credit line does not obligate us to do
so again.
Our rights continue
Our failure or delay in exercising any of our rights under this Agreement does not mean that we are
unable to exercise those rights later.
Payment allocation
Subject to any mandatory provisions of applicable law, in most instances, we will allocate any
amount over your minimum payment to the highest APR balances first. Payments up to the minimum
payment will be applied at our discretion, including to lower APR balances first.
Liability for unauthorized use of your Account
If you notice the loss or theft or your credit card or a possible unauthorized use of your card, you
should write to us immediately at the address listed on your bill, or call as at 800-762-1000. If you
believe your digital or mobile wallet service or the information entered into it to permit you to use
such digital or mobile wallet service has been lost or stolen or wrongfully appropriated or used,
please call us at the same number above to report the loss or theft. You will not be liable for any
unauthorized use that occurs after you notify us. You may, however, be liable for unauthorized use
that occurs before your notice to us. In any case, your liability will not exceed $50.
Right to assets at affiliates
In case of any default by you, we may request liquidation of, or encumber or hold, assets at
any of our affiliates, in order to pay-off any balance on your Account.

13

Governing law
This Agreement, your Account, and the relationship between you and us will be governed by federal
law and, to the extent that state law is applicable, the laws of the state of Utah, where we are located.
For any individual (including an individual acting as trustee of a trust) residing in or located
in any country in the European Economic Area: You represent and warrant that you do not intend
to use any part of this credit line, and will not now or in the future use any part of this credit line, for
the acquiring or retaining of property rights in land or in an existing or projected building, or for the
renovation of residential property.
Inquiries or questions
You may address any inquiries or questions that you have about your Account to UBS Bank USA by
calling us at 800-762-1000 or by writing to us at UBS Bank USA— Card Operations, 1000 Harbor
Boulevard, 6th floor, Weehawken, NJ 07086. If you telephone us instead of writing, you may lose
certain rights the law gives you to dispute billing errors (see Your Billing Rights).
Military Lending Act
If you are a covered borrower as defined under the Military Lending Act or you are a
dependent of a covered member as defined under the Military Lending Act, the following
disclosure is applicable to you:
Federal law provides important protections to members of the Armed Forces and their dependents
relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the
Armed Forces and his or her dependent may not exceed an annual percentage rate of 36 percent.
This rate must include, as applicable to the credit transaction or account: The costs associated with
credit insurance premiums; fees for ancillary products sold in connection with the credit transaction;
any application fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a credit card
account).
For important information and disclosures regarding the Military Lending Act you may call 1-800762-1000.
Arbitration
Subject to the last paragraph of this section, at the election of either you or us, any claim, dispute or
controversy (Claim) by either you or us against the other, or against the employees, agents or assigns of
the other, arising from or relating in any way to this Agreement or your Account, or any transaction on
your Account including (without limitation) Claims based on contract, tort (including intentional torts),
fraud, agency, negligence, statutory or regulatory provisions or any other source of law and (except as
specifically provided in this Agreement) Claims regarding the applicability of this arbitration clause or the
validity of the entire Agreement, shall be resolved exclusively and finally by binding arbitration under the
rules and procedures of the arbitration Administrator selected at the time the Claim is filed. The
Administrator selection process is set forth below. For purposes of this provision, “you” includes any
authorized user on the Account, and any of your agents, beneficiaries or assigns; and “we” or “us”
includes our employees, parents, subsidiaries, affiliates, beneficiaries, agents and assigns, and to the
extent included in a proceeding in which UBS Bank USA is a party, its service providers and marketing
partners. Claims made and remedies sought as part of a class action, private attorney general or other
representative action (hereafter all included in the term class action) are subject to arbitration on an
individual basis, not on a class or representative basis.
Alternatively, you and we may pursue a Claim within the jurisdiction of a small claims court,
provided that the action remains in that court, is made on behalf of or against you only and is not
made part of a class action, private attorney general action or other representative or collective action.
Further, you and we agree not to seek to enforce this arbitration provision, or otherwise commence

14

arbitration based on the same claims in any action brought before the small claims court. The party
initiating arbitration shall utilize the American Arbitration Association, adr.org, 1633 Broadway, 10th
Floor, New York, New York 10019, 800-778-7879, to administer the arbitration (the Administrator).
The Administrator provides information about arbitration, its arbitration rules and procedures, fee
schedule and claims forms at its web site or by mail as set forth above. The Administrator will apply
the rules and procedures in effect at the time the arbitration is filed. The Claim will be heard before a
single arbitrator, whose authority is limited exclusively to the resolution of Claims between you and us
and to providing an award effective only on behalf of you and/or us.
The arbitration will not be consolidated with any other arbitration proceedings. The Administrator
shall resolve each dispute in accordance with applicable law. If you commence arbitration, you must
provide us the notice required by the Administrator’s rules and procedures. The notice may be sent to
us at UBS Bank USA Card Operations, 1000 Harbor Boulevard, 6th floor, Weehawken, NJ 07086. If
we commence arbitration, we will provide you notice at your last known billing address. We agree to
honor your request to remove the action to a small claims court, provided that we receive the
request within thirty days of the notice of commencement of arbitration. Any arbitration hearing at
which you appear will take place at a location within the federal judicial district that includes your
billing address at the time the Claim is filed. This arbitration agreement is made pursuant to a
transaction involving interstate commerce, and shall be governed by the Federal Arbitration Act, 9
U.S.C. §§ 1-16. Judgment upon any arbitration award may be entered in any court having jurisdiction.
No class actions or joinder or consolidation of any Claim with a Claim of any other person or
entity shall be allowable in arbitration, without the written consent of both you and us. In
the event that there is a dispute about whether limiting arbitration of the parties’ dispute to non-class
proceedings is enforceable under applicable law, then that question
shall be resolved by litigation in a court rather than by the arbitrator; and to the extent it is determined
that resolution of a Claim shall proceed on a class basis, it shall so proceed in a court of competent
jurisdiction rather than in arbitration. We will pay, or reimburse you for, all fees or costs to the extent
required by law or the rules of the arbitration Administrator. Whether or not required
by law or such rules, if you prevail at arbitration on any Claim against us, we will reimburse you for
any fees paid to the Administrator in connection with the arbitration proceedings. In addition, in any
arbitration that you elect to file that could be heard in small claims court in your jurisdiction, we will
pay the filing fees and other arbitration fees above the cost of filing in that small claims court. If you
are required to advance any fees or costs to the arbitration Administrator, but you ask us to do so in
your stead, we will consider and respond to your request. This arbitration agreement applies to all
Claims now in existence or that may arise in the future except for Claims by or against any unaffiliated
third party to whom ownership of your Account may be assigned, in which case this arbitration
agreement will apply only if you or the third party chose arbitration. This arbitration agreement
survives the termination of the Cardmember Agreement or the Account relationship, including your
payment in full, and your filing of bankruptcy. Nothing in this Agreement shall be construed to prevent
any party’s use of (or advancement of any claims, defenses, or offsets in) bankruptcy or repossession,
replevin, judicial foreclosure or any other prejudgment or provisional remedy relating to any collateral,
security or property interests for contractual debts now or hereafter owed by either party to the other
under this Agreement.
ARBITRATION WITH RESPECT TO A CLAIM IS BINDING AND NEITHER YOU NOR WE WILL HAVE THE
RIGHT TO LITIGATE THAT CLAIM THROUGH A COURT. IN ARBITRATION YOU AND WE WILL NOT
HAVE THE RIGHTS THAT ARE PROVIDED IN COURT INCLUDING THE RIGHT TO A TRIAL BY JUDGE OR
JURY AND THE RIGHT TO PARTICIPATE OR BE REPRESENTED IN PROCEEDINGS BROUGHT BY OTHERS
SUCH AS CLASS ACTIONS OR SIMILAR PROCEEDINGS. IN ADDITION, THE RIGHT TO
DISCOVERY AND THE RIGHT TO APPEAL ARE ALSO LIMITED OR ELIMINATED BY ARBITRATION. ALL OF
THESE RIGHTS ARE WAIVED AND ALL CLAIMS MUST BE RESOLVED THROUGH ARBITRATION.

15

If at the time you open this Account you are a covered borrower under the Military Lending Act or
you are a dependent of a covered member as the terms "covered member" and "dependent" are
defined in the Military Lending Act and its implementing regulations, then this entire section titled
“Arbitration” is not applicable to your Account.
YOUR BILLING RIGHTS
Your billing rights: keep this document for future use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What to do if you find a mistake on your statement
If you think there is an error on your statement, write to us at: UBS
Bank USA— Card Operations
1000 Harbor Boulevard, 6th floor Weehawken,
NJ 07086
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is
wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment
on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not
required to investigate any potential errors and you may have to pay the amount in question.
What will happen after we receive your letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also
tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we
believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you
interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of
your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other
fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along
with applicable interest and fees. We will send you a statement of the amount you owe and the date

16

payment is due. We may then report you as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days
telling us that you still refuse to pay. If you do so, we cannot report you as delinquent without also
reporting that you are questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when the matter has been
settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you
question even if your bill is correct.
Your rights if you are dissatisfied with your credit card purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card and you
have tried in good faith to correct the problem with the merchant, you may have the right not to pay
the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current
mailing address, and the purchase price must have been more than $50. (Note: Neither of these are
necessary if your purchase was based on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from
an ATM or with a check that accesses your credit card Account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in
writing at:
UBS Bank USA — Disputes
P.O. Box 84040
Columbus, GA 31993-9982
While we investigate, the same rules apply to the disputed amount as discussed above. After we
finish our investigation, we will tell you our decision. At that point, if we think you owe an amount
and you do not pay, we may report you as delinquent.

© UBS 2020. The key symbol and UBS are among the registered and unregistered trademarks of UBS.
VISA, VISA SIGNATURE and VISA INFINITE are registered trademarks owned by Visa International
Service Association and used under license. UBS Visa Signature and UBS Visa Infinite credit cards are
issued by UBS Bank USA with permission from Visa U.S.A. Inc. Other marks are trademarks of the
respective owners. All rights reserved.
The RMA and Business Services Account BSA are brokerage accounts with UBS Financial Services Inc.
RMA, Resource Management Account and Business Services Account BSA are registered service marks of
UBS Financial Services Inc.

2020-42039

17

